<html>
<title> - VARIOUS MEASURES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
                            VARIOUS MEASURES

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   ON

            H. Res. 256, H. Res. 944, H.R. 1697, H.R. 4969,

              H.R. 5576, H.R. 5898, H.R. 6197, H.R. 6207,

                          and H. Con. Res. 20

                               __________

                             JUNE 28, 2018

                               __________

                           Serial No. 115-143

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        




Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                      or http://www.gpo.gov/fdsys/
                      
                      
                      
                      

                                 ______
                                 
                  U.S. GOVERNMENT PUBLISHING OFFICE
                   
 30-588 PDF                 WASHINGTON : 2018                                      
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP ON

H. Res. 256, Expressing support for the countries of Eastern 
  Europe and the North Atlantic Treaty Organization..............     2
  Amendment in the nature of a substitute to H. Res. 256 offered 
    by the Honorable Edward R. Royce, a Representative in 
    Congress from the State of California, and chairman, 
    Committee on Foreign Affairs.................................     7
      Amendments to the amendment in the nature of a substitute 
        to H. Res. 256 offered by:
          The Honorable Edward R. Royce..........................    13
          The Honorable Joe Wilson, a Representative in Congress 
            from the State of South Carolina.....................    14
H. Res. 944, Expressing solidarity with and sympathy for the 
  people of Guatemala after the June 3, 2018, eruption of the 
  Fuego Volcano..................................................    15
  Amendment in the nature of a substitute to H. Res. 944 offered 
    by the Honorable Norma J. Torres, a Representative in 
    Congress from the State of California........................    18
H.R. 1697, To amend the Export Administration Act of 1979 to 
  include in the prohibitions on boycotts against allies of the 
  United States boycotts fostered by international governmental 
  organizations against Israel and to direct the Export-Import 
  Bank of the United States to oppose boycotts against Israel, 
  and for other purposes.........................................    20
  Amendment in the nature of a substitute to H.R. 1697 offered by 
    the Honorable Edward R. Royce................................    31
      Amendments to the amendment in the nature of a substitute 
        to H.R. 1697 offered by:
          The Honorable Ron DeSantis, a Representative in 
            Congress from the State of Florida...................    38
          The Honorable Edward R. Royce..........................    39
H.R. 4969, To improve the design and construction of diplomatic 
  posts, and for other purposes..................................    40
  Amendment in the nature of a substitute to H.R. 4969 offered by 
    the Honorable Michael T. McCaul, a Representative in Congress 
    from the State of Texas......................................    46
      Amendment to the amendment in the nature of a substitute to 
        H.R. 4969 offered by the Honorable Dina Titus, a 
        Representative in Congress from the State of Nevada......    62
H.R. 5576, To address state-sponsored cyber activities against 
  the United States, and for other purposes......................    63
  Amendment in the nature of a substitute to H.R. 5576 offered by 
    the Honorable Ted S. Yoho, a Representative in Congress from 
    the State of Florida.........................................    84
      Amendments to the amendment in the nature of a substitute 
        to H.R. 5576 offered by:
          The Honorable Gerald E. Connolly, a Representative in 
            Congress from the Commonwealth of Virginia...........   104
          The Honorable Edward R. Royce..........................   105
H.R. 5898, To require the Secretary of State to develop a 
  strategy on administration policy regarding UNRWA, and for 
  other purposes.................................................   107
  Amendment in the nature of a substitute to H.R. 5898 offered by 
    the Honorable Lee M. Zeldin, a Representative in Congress 
    from the State of New York...................................   110
      Amendments to the amendment in the nature of a substitute 
        to H.R. 5898 offered by
          The Honorable David Cicilline, a Representative in 
            Congress from the State of Rhode Island..............   115
          The Honorable Scott Perry, a Representative in Congress 
            from the Commonwealth of Pennsylvania................   116
H.R. 6197, To amend the State Department Basic Authorities Act of 
  1956 to authorize rewards for thwarting wildlife trafficking 
  linked to transnational organized crime, and for other purposes   119
H.R. 6207, To support democracy and accountability in the 
  Democratic Republic of the Congo, and for other purposes.......   122
  Amendment to H.R. 6207 offered by the Honorable Edward R. Royce   134
H. Con. Res. 20, Expressing the sense of the House of 
  Representatives regarding the execution-style murders of United 
  States citizens Ylli, Agron, and Mehmet Bytyqi in the Republic 
  of Serbia in July 1999.........................................   135

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE RECORD
                                APPENDIX

Markup notice....................................................   160
Markup minutes...................................................   161
Markup summary...................................................   163
The Honorable Ted S. Yoho, a Representative in Congress from the 
  State of Florida, and chairman, Subcommittee on Asia and the 
  Pacific: Letter from the Chamber of Commerce of the United 
  States of America dated June 27, 2018..........................   165
The Honorable David Cicilline, a Representative in Congress from 
  the State of Rhode Island:
  UNRWA Programme Budget and Gaza Field Update...................   166
  NGO Programs in Gaza and the West Bank Impact by Funding Hold 
    during Administrative Review--As of June 15, 2018............   169
  Framework for Cooperation Between the United Nations Relief and 
    Works Agency for Palestine Refugees in the Near East and the 
    United States of America, 2018-2019..........................   173
  IDF chief: The Likelihood of war has increased substantially...   180
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York: Prepared statement......................   184
The Honorable Dina Titus, a Representative in Congress from the 
  State of Nevada: Prepared statement............................   187


                            VARIOUS MEASURES

                              ----------                              


                        THURSDAY, JUNE 28, 2018

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:00 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. The committee will come to order.
    Pursuant to notice, we meet today to mark up nine 
bipartisan measures. Without objection, all members may have 5 
days to submit statements or extraneous material on today's 
business.
    As members were notified yesterday, we intend to consider 
today's measures en bloc. And so, without objection, the 
following items previously provided to members, and also in 
your packets, will be considered en bloc and they are 
considered as read.
    House Resolution 256. This is expressing support for the 
countries of Eastern Europe and for NATO. The Royce Amendment 
in the Nature of a Substitute, Royce Amendment 134, and Wilson 
Amendments 68; House Resolution 944, expressing sympathy for 
the people of Guatemala after the recent volcano eruption with 
a Torres Amendment 11 in the Nature of a Substitute; H.R. 1697, 
the Israel Anti-Boycott Act, the Royce Amendment in the Nature 
of a Substitute, DeSantis Amendment 82, and Royce Amendment 1; 
H.R. 4969, the Improving Embassy Design and Security Act of 
2018, McCaul Amendment 105 in the Nature of a Substitute, and 
Titus Amendment 62; H.R. 5576, the Cyber Deterrence and 
Response Act with Yoho Amendment 137 in the Nature of a 
Substitute, Connolly Amendment 86, Royce Amendment 2; H.R. 
5898, the U.N. Relief and Works Agency Accountability Act with 
the Zeldin Amendment in the Nature of a Substitute, Cicilline 
Amendment 1, Perry Amendment 1; H.R. 6197, the Rescuing Animals 
and Rewards Act; and H.R. 6207, the Democratic Republic of the 
Congo Democracy and Accountability Act with a Royce Amendment 
133; and House Concurrent Resolution 20 regarding the 
execution-style murders of U.S. citizens in the Republic of 
Serbia in July 1999.
    [The information referred to follows:]<greek-l>H. Res. 
256 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Royce. I now recognize myself to speak on today's 
business and I will just explain that first we are going to 
have H.R. 6207. This would be the Democratic Republic of the 
Congo Democracy and Accountability Act. And as an original 
cosponsor of this bill, I want to thank many of the members of 
this committee who have traveled with me to the Congo. I have 
made three trips there in order to try to push for elections. I 
deeply appreciate the bipartisan work of Chairman Smith and 
Ranking Member Bass of the Subcommittee on Africa, Global 
Health, Global Human Rights, and International Organizations.
    President Kabila's security forces are responsible, as we 
know on this committee, for massive human rights abuses and 
great instability across the DRC. This bill will help push 
Kabila to follow through with his commitments to do one thing 
that we have all pushed him on, to hold free, fair, and 
transparent elections in December of this year, as Congo has 
committed to do.
    Next we have H.R. 1697. This is the Israel Anti-Boycott 
Act. This bill was sponsored by Representative Roskam and 
Vargas. It prohibits U.S. companies from participating in 
boycotts promoted by international organizations like the U.N. 
that target U.S. partners like Israel.
    Next we have H.R. 5898, the United Nations Relief and Works 
Agency Accountability Act. And I want to thank the authors, 
Representative Cicilline and Representative Zeldin for this 
bipartisan bill to strengthen congressional oversight of the 
State Department and this agency.
    Next we consider H.R. 4969. This is the Improving Embassy 
Design and Security Act and this legislation will improve the 
security, the functionality, the efficiency of our Embassies 
overseas. And I want to thank the bill's sponsors, Chairman 
McCaul and Rep. Kelly, as well as Ranking Member Engel for 
their work on this legislation because by strengthening 
oversight and management of construction of new facilities, we 
can better protect our diplomats. And we will save taxpayer 
dollars, too, by the way this legislation was crafted.
    Next we have H.R. 5576. This is the Cyber Deterrence and 
Response Act. Malicious cyber activity by foreign governments, 
including especially, Russia, China, and North Korea cannot be 
tolerated. So Chairman Yoho's bill before us today builds on 
this committee's previous work by establishing a framework for 
deterring and responding to malicious state-sponsored cyber 
activity.
    Next we have H.R. 6197, the Rescuing Animals with Rewards 
Act. This builds on the committee's conservation work by 
prioritizing efforts to counter transnational wildlife 
traffickers through the State Department's existing rewards 
program. These tools were successfully used, if you recall, in 
2014 to bring the Laotian trafficker known as the Pablo Escobar 
of Wildlife Crime to justice. I want to thank the bill's 
author, that would be Representative Dan Donovan, former 
prosecutor, for this measure.
    Next we have House Resolution 944. Hundreds of Guatemalans 
perished in the eruption of the volcano in June. Thousands have 
been displaced. I wanted to thank Congresswoman Torres for this 
timely resolution to extend our condolences to the people of 
Guatemala and to recognize the State Department and USAID's 
swift response to this crisis.
    Next we have House Resolution 256, which sends a strong 
message of support to our allies in Central and Eastern Europe 
that are under increasing pressure by Russia. We thank Steve 
Cohen for this measure.
    Finally, we have House Concurrent Resolution 20. In July 
1999, after the Kosovo War ended, there were three young 
American brothers that were there and were illegally arrested 
while they were traveling through Serbia. Despite a court order 
for their release, all three brothers were instead taken by a 
Serbian special operations unit. They were murdered execution 
style and they were left atop a mass grave.
    I would like to take a moment to express our deep 
condolences to the Bytyqi family because that family is with us 
today. This marks 20 years since these U.S. citizens were 
assassinated, yet to date, no one has been brought to justice 
for their deaths.
    And I want to thank Representative Zeldin for this measure. 
But we again want to deeply extend our condolences to the 
family here with us today. We are very, very sorry for your 
loss.
    So I will now recognize the ranking member for his remarks. 
Mr. Engel.
    Mr. Engel. Thank you very much, Mr. Chairman. Thank you for 
calling this markup.
    I have a lengthy statement addressing all the good measures 
before us today and I ask unanimous consent that it be included 
in its entirety as part of the record.
    Chairman Royce. Without objection.
    Mr. Engel. I know we are short on time this morning, final 
votes will be called soon, and I want to give members an 
opportunity to speak about their bills and resolutions.
    I just want to speak about one bill briefly and that is the 
bill you just mentioned about the Bytyqi brothers. I have spent 
extensive time of my years in Congress fighting for the 
independence of Kosovo and these brothers, American citizens, 
were murdered by Serb forces. Despite many of us having 
contacts with Serbia, I appealed to the Serbian strong man, Mr. 
Vucic, when he was here, and came to my office twice, and 
promised me that this would be resolved within a month. More 
than a year and, of course, it hasn't been resolved and it is 
an absolute disgrace.
    So we have to keep supporting the Albanian people in their 
struggle in Kosovo and keep the presence of the Bytyqi brothers 
alive. And we are not going to stop until we get justice for 
them. So I want to single out that resolution.
    Again, I support all the resolutions. I am grateful, as 
usual, to our members on both sides of the aisle for their hard 
work. And I thank you again, Mr. Chairman. I wish everyone a 
safe and happy independence day.
    And I yield back.
    Chairman Royce. Thank you, Mr. Engel.
    We go to Ileana Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Chairman Royce, and I 
applaud your efforts, as well as Ranking Member Engel to 
continue to bring forth bipartisan measures before this 
committee for consideration.
    I wanted to speak on the UNRWA Accountability Act offered 
by our friends and colleagues Mr. Cicilline and Mr. Zeldin. I 
applaud their efforts to find a way forward in ensuring that we 
hold UNRWA accountable and that no U.S. taxpayer dollars are 
being misused against our interest.
    We can all support the idea that greater transparency, 
oversight, and accountability are needed at all U.N. agencies, 
not just UNRWA; however, I worry that this bill, which requires 
a report from the administration on its UNRWA strategy, doesn't 
quite go far enough. The United States holds considerable 
leverage when it comes to UNRWA, namely that it relies on the 
kindness of our contributions. We shouldn't wait to use that 
leverage.
    This bill should lay out the conditions we need to see 
reform at UNRWA before the U.S. will allocate more money to 
that agency. It is an ever-expanding mandate, an ever-expanding 
budget gap, an ever-growing politicization at the agency and 
all of that makes it difficult for us to continue supporting 
this agency without seeing concrete reform and action to 
address our concerns, not to mention the idea of having a 
definition of the word refugee that guarantees, Mr. Chairman, 
that the number of Palestinians that UNRWA mandate covers will 
expand.
    So the model is untenable. It is unjustifiable, especially 
when there is an entire entity at the U.N. that is already 
supposed to be its Refugee Agency, a body which, by the way, 
covers 12 times more individuals than UNRWA, yet somehow 
employs less than a third of the people than UNRWA in a body 
that has its own definition of a refugee that doesn't match 
with the U.N.'s own Refugee Agency, nor does it match how we 
would define a refugee.
    So while, again, I applaud my colleague's effort and I 
support this measure, I would have liked to have seen us do 
more to condition our assistance to UNRWA until we see real 
reforms.
    And I yield back, Mr. Chairman.
    Chairman Royce. Good points, Congresswoman.
    We go now to Brad Sherman of California.
    Mr. Sherman. Mr. Chairman, thank you for this markup, 
bringing excellent bills to our attention. I support them all. 
I think I have cosponsored virtually all of them.
    As to the Anti-Israel Boycott Act, this is probably--this 
has drawn a lot of attention. I am pleased to be the lead 
Democrat on this bill.
    We have, for decades, said that Americans will not be 
forced to boycott a friend of the United States by 
international economic pressure. On the effort of Saudi Arabia 
and others to tell American companies you must not do business 
with Israel or you will be deprived of economic opportunities, 
we responded to that by saying no American company can furnish 
the Saudi Arabian Government with proof that it is boycotting 
Israel or otherwise cooperate with the Saudis on this.
    What this bill does is it says there is no loophole in this 
longstanding, multi-decade policy if the pressure comes not 
from one government but from an association of foreign 
governments. Let me make it clear nothing in this bill says 
that you cannot, any domestic organization can't protest 
against Israel, or boycott its products, or those of any other 
ally of the United States. It simply says that we will not 
allow American citizens to be pressured into that by foreign 
governments, which has long been our law, or by associations of 
foreign governments.
    I should also comment on the Cyber Deterrence and Response 
Act. I am pleased to join with Chairman Yoho of the 
Subcommittee on Asia and the Pacific, of which I am the ranking 
member, because this is not just a Russia problem. But I am 
pleased that this bill does focus on the way that states, 
including Russia, have sought to undermine our electoral 
system. And that is a bipartisan issue, not just an issue of 
one party. No American wants to see Russia influencing our 
elections, particularly through illegal and hidden measures.
    I want to, of course, support the Congo Democracy and 
Accountability Act and I want to commend Representatives Smith 
and Bass, and of course, the chair and ranking member, for 
their work on this bill reaffirming our commitment to peace and 
stability in the region, especially in light of President 
Kabila's obstruction of elections.
    The other bills before us are also excellent and, in 
support of them, I will yield back my time.
    Chairman Royce. Thank you, Mr. Sherman.
    Mr. Chris Smith of New Jersey.
    Mr. Smith. Thank you very much, Mr. Chairman.
    And just let me say very briefly you know I support the 
bills that are before us but I just would like to focus 
especially on the Democratic Republic of Congo Democracy and 
Accountability Act, H.R. 6207.
    I, too, have been to the DRC, both to the capital and to 
Goma. We all know that the DRC and the people of that country 
have suffered so enormously over the years. More than 5.4 
million people died between 1997 and 2003. Peacekeepers that 
were deployed there, the largest U.N. peacekeeping force in the 
world, were found complicit in human trafficking, especially 
the rape of young children. Thankfully, that has been largely 
stopped. I held four hearings on that, went there to 
investigate that in Goma, and was shocked and dismayed that the 
peacekeepers are part of the problem, and working, and doing 
things that rogue elements are doing, you know we have a 
serious problem.
    This legislation focuses especially on Kabila, and his 
unwillingness to step aside, and to allow the election to occur 
in a timely fashion. We have called and the Obama 
administration did impose sanctions on key figures. Those are 
codified in this legislation. And our Ambassador to the United 
Nations, Nikki Haley, has been very forthright as well in 
speaking out against Kabila's clinching of power and 
unwillingness to let go of it.
    H.R. 6207 supports the humanitarian efforts that are being 
made by civil society. And in the ongoing effort, Ms. Bass and 
I have held a number of hearings on the D.R. Congo, most 
recently on May 9th, another one late last year, of which you 
were a part of that, Mr. Chairman. But you know John 
Prendergast just summed it up. The Kabila government's track 
record of violent repression against civil society, pro-
democracy movements, and faith-based groups raises concerns 
that these new protests will be met with a fresh wave of 
violent repression. And we speak to that in the body of the 
language of the bill as well.
    People want a free, fair, and transparent election. In the 
D.R. Congo, the Catholic Church has played a huge role in 
trying to ensuring that. The Sylvester Agreement in 2016 was a 
great effort to bring things together and, of course, it has 
been largely frustrated by Joseph Kabila. And this legislation 
tries to take it to the next step and get the administration 
here and there further engaged to get this right.
    So I thank you for marking this piece of legislation up and 
yield back.
    Chairman Royce. Thank you, Mr. Smith, and thank you for all 
your work on that issue as well.
    Congresswoman Karen Bass of California.
    Ms. Bass. Thank you, Mr. Chair and Ranking Member Engel, 
for bringing up H.R. 6207 to the committee today for 
consideration.
    H.R. 6207, the DRC Democracy and Accountability Act, seeks 
to promote free and fair elections in the DRC by imposing 
sanctions on high-level individuals who are undermining 
democratic processes and institutions in the country, as well 
as those who are responsible for extrajudicial killings and 
have engaged in public corruption.
    With respect to the ongoing political situation in the DRC, 
President Kabila has deliberately stalled planned elections, 
despite completing his constitutionally-mandated two terms. I, 
personally, am very concerned that although he has committed to 
having elections in December, there is not a lot of faith that 
that is actually going to happen. And I can't think of any 
issue more than the DRC that I have had numerous constituents 
who are in the diaspora who have come in and really called on 
us to please help the situation.
    So last year, the U.N. General Secretary Kofi Annan and 
nine former African Presidents said Congo's future is in grave 
condition--grave danger. We are deeply concerned about the 
political situation in the DRC, which represents a threat to 
the stability, prosperity, and peace of the Great Lakes region 
and, indeed, for Africa as a whole. We feel obliged to sound 
the alarm before it is too late. Nine former African Presidents 
have said that.
    I am proud that my colleagues, Chris Smith, Chairman Royce, 
and Ranking Member Eliot Engel and I are able to answer this 
call and put forth legislation that seeks to address the 
situation in the DRC.
    Thank you and I yield back.
    Chairman Royce. Well thank you, Congresswoman. And it is 
certainly true that heads of states across Africa--we just had 
a delegation out there and everyone is focused on the same 
issue. As a matter of fact in the international community 
everyone is focused on the same issue, the importance, come 
December, of having those elections across Congo.
    Joe Wilson, South Carolina.
    Mr. Wilson. Thank you, Chairman Ed Royce, and thank you, 
Ranking Member Eliot Engel. I particularly want to commend 
Congressman Engel on his renomination this week. We are really 
grateful for his continued service on behalf of the American 
people.
    And thank you for convening this markup of legislation that 
embodies the committee's emphasis on building national and 
international security, improving human rights, and fighting 
international crime.
    I am also grateful for Congressman Steve Cohen for 
introducing House Resolution 256, expressing support for the 
countries of Central and Eastern Europe and the North Atlantic 
Treaty Organization. As the grateful cochairman of the Bulgaria 
Caucus, I appreciate Bulgarian Prime Minister Boyko Borissov 
and Bulgarian Ambassador to the United States Tihomir Stoytchev 
for their strong support of NATO.
    As the NATO Summit in July approaches, it is important for 
the Congress of the United States to confirm its commitment to 
the alliance and particularly Article 5, which states that an 
armed attack on one shall be considered an armed attack on all. 
This commitment from the whole of NATO ensures security among 
our Eastern and Central European NATO allies.
    Article 5's commitment to defend members is critical with 
the Russian invasion of Eastern Ukraine, and illegal occupation 
of Crimea since 2014, and earlier aggression in Moldova and the 
Republic of Georgia. Thankfully, President Trump has rightfully 
promoted the fundamental concept of collective defense in his 
historic Warsaw address. The security NATO provides the United 
States and Europe has never been more critical as we promote 
the European Deterrence Initiative with NATO troops deployed in 
Poland, Latvia, Estonia, and Lithuania.
    This morning I met with the Polish Secretary of State 
Plenipotentiary of the Prime Minister, Anna Maria Anders, who 
promoted a permanent American-NATO basing in Poland to support 
peace through strength.
    I also appreciate House Resolution 944 expressing 
solidarity and sympathy of the people of Guatemala after the 
June 3, 2018, eruption of the Fuego Volcano. I am grateful for 
Congresswoman Norma Torres for introducing this legislation and 
highlighting the ongoing plight of the Guatemalan people to 
combat the destruction by the volcanic eruption. Last August I 
saw firsthand the talented people of Guatemala with former 
Ambassador Tony Hall, serving with the Food for the Hungry 
Program, and was welcomed by Ambassador Manuel Alfredo Espina 
and the courageous President Jimmy Morales.
    This legislation for markup and discussion today provides 
and strengthens America's national and international security, 
protects Americans abroad, and promotes American values among 
our friends and allies. I am grateful to support and cosponsor 
all of today's markup legislation.
    And I yield back my time.
    Chairman Royce. Thank you, Mr. Wilson.
    We go to Lois Frankel of Florida.
    Ms. Frankel. Thank you, Mr. Chair, and thank you to our 
ranking member, and to all the members whose bills are on deck 
today, and I support them all. I want to highlight a couple of 
them.
    First, the Israeli Anti-Boycott Act, of which I am a 
cosponsor, which would expand anti-boycott laws prohibiting 
United States compliance with the Arab League boycott of Israel 
to international organizations so that American companies doing 
with business with Israel are protected from the efforts to 
target them. And I want to thank my colleagues for making 
changes to the bill that would ensure protection of First 
Amendment rights.
    The Boycott, Divestment, Sanctions or BDS movement 
encourages economic warfare against Israel, our strongest ally 
in the Middle East. And demonizing Israel harms the world's 
only Jewish state but it also creates a roadblock on the path 
to peace, impacting both Israelis and Palestinians.
    I am going to give an example of this. After facing 
mounting boycotts, SodaStream, an Israeli soda machine company, 
was forced to shut down a West Bank factory, putting 600 
Palestinians out of work. Ali Jafar, a shift manager, 
said<greek-l>, quote deg., ``All the people who wanted to close 
it are mistaken.'' They didn't take into consideration the 
families.
    Second, I want to draw attention to the UNRWA 
Accountability Act. The Trump administration has frozen all 
assistance to the West Bank and Gaza, including the United 
Nations Relief and Work Agency, pending a review and providing 
no time line or specifics to Congress. This bipartisan bill 
would increase transparency and congressional oversight, 
forcing the administration to report on the ongoing review 
because the freeze makes no sense. Because if you want to stop 
the further violence from spilling over even further, we have 
to participate in humanitarian assistance.
    The senior Israeli security officials have warned that if 
the situation in Gaza continues to deteriorate, it could lead 
to war.
    And the last bill I would like to mention is the Resolution 
256, which expresses support for NATO and the countries of 
Central and Eastern Europe, condemns Russia's Ukraine 
occupation and calls for U.S. continued support for ally 
countries in Central and Eastern Europe.
    Over the past 4 years I have been privileged with some of 
the members here to represent the United States at the NATO 
Parliamentary Assembly. And in this role, I am frequently 
reminded that no man or woman is an island. Societies do not 
thrive when they are isolated from others. We need our allies 
to stand with us as we fight for mutually-shared democratic 
values.
    It was reported this morning that Mr. Trump told the 
leaders, at a recent G-7 Summit, that NATO is as bad as NAFTA, 
that it is much too costly for the United States. And this 
President likes to call NATO obsolete. And I just want to say I 
think he is flat wrong. It is so relevant today, given the 
dynamics of threats we and our allies face.
    At a time when the administration sows doubts about this 
critical alliance, we must affirm our commitment to NATO and 
reassure our Central and Eastern European partners that we will 
defend them against Russian aggression.
    And I yield back and, again, thank my colleagues.
    Chairman Royce. I thank the gentlelady.
    We go to Ted Yoho of Florida.
    Mr. Yoho. Thank you, Mr. Chairman.
    Before I get started, I just would like to acknowledge the 
Bytyqi family again for the sacrifice that you guys have made 
and your family members. Our hearts go out to you.
    Chairman Royce, Ranking Member Engel, I want to briefly 
address the Cyber Deterrence and Response Act. Most 
importantly, I want to thank you and other original cosponsors 
for supporting the bill and working so closely with our team to 
create a carefully tailored and bipartisan piece of 
legislation.
    Without objection, I would like to submit up for the record 
this letter of support from the U.S. Chamber of Commerce. As 
the Chamber points out, the bill will help spotlight adherence 
to international norms and deterrence to heighten the cost on 
countries or the subordinates that hack the United States.
    Chairman Royce. Without objection.
    Mr. Yoho. It is no secret the United States urgently needs 
upgrades and cyber deterrence but there are no procedures in 
current law for naming and shaming state sponsored hackers and/
or linking penalties to their elicit conduct. We have spent 
over a year working to make sure this legislation is consistent 
with past practices, and doesn't tie the hands of the executive 
branch, but will still upgrade our cyber deterrence measures by 
establishing minimum penalties and ensuring the cyber actions 
are implemented consistently across administrations to come.
    The Cyber Deterrence Response Act also pairs very well with 
Chairman Royce's Cyber Diplomacy Act which will elevate cyber 
issues in the State Department. Together, these pieces of 
legislation begin to lay out a much-needed national cyber 
policy, and it is a proactive component to establish norms, and 
a reactive component to defend our interests.
    I thank you and hope my colleagues on the committee will 
give their support of the bill and I yield back.
    Chairman Royce. Thank you.
    We go to Robin Kelly of Illinois.
    Ms. Kelly. Thank you, Mr. Chairman, for including H.R. 4969 
in today's markup, the Improving Embassy Design and Security 
Act. Together with Mr. McCaul, I am proud to support this 
important legislation that will allow for greater congressional 
oversight of Embassy construction and save taxpayers money.
    The State Department must balance designing a functional 
space that will properly represent the United States to the 
host country with the necessary security protections for the 
modern age. Protecting our diplomats overseas should be a top 
priority, which is why I was disappointed to see the Trump 
administration budget request a 28.4 percent decrease for 
fiscal year 2019 from 2018 enacted levels for Embassy security 
and construction.
    We heard repeatedly that the tragedy that happened in 
Benghazi should not be repeated. This administration has to 
make Embassy security a bigger priority. That is why I am glad 
we are voting on this legislation to protect our diplomats 
working overseas and prevent projects from going over cost.
    I was also an original cosponsor of H. Res. 256, expressing 
support for the North Atlantic Treaty Organization in the 
countries of Central and Eastern Europe, which is under 
consideration today. This important resolution calls for 
continued U.S. support for NATO allies and the European 
Deterrence Initiative.
    Putin's illegal annexation of Crimea and interference in 
European elections cannot be forgotten. Russia has undermined 
international law and killed tens of thousands of Ukrainians. 
This resolution shows Europe and NATO that the U.S. Congress 
stands by our allies and will not allow Russia to threaten our 
collective security.
    I yield back.
    Chairman Royce. Thank you, Congresswoman Kelly.
    We go to Lee Zeldin of New York.
    Mr. Zeldin. Thank you, Mr. Chairman. I appreciate the 
committee's consideration of these bills today.
    Beginning with H. Con. Res. 20, this resolution has been 
introduced since 2013 regarding the execution-style murders of 
Ylli, 25 years old, Agron, 23 years old, and Mehmet, 21 years 
old, who were born in the United States and resided in the 
greatest congressional district in America, in Hampton Bays, 
First Congressional District of New York.
    In July 1999, these three brothers went overseas toward the 
end of the Kosovo War and were arrested by Serbian authorities 
for illegally entering the country when they accidently crossed 
in the Serbian-controlled territory. The brothers were 
kidnapped, murdered, and dumped into a mass grave in Serbia by 
government officials still serving today.
    Since taking office, I have been committed to helping the 
Bytyqi family receive the justice they have long deserved. They 
are here today in the audience, and supported today's 
resolution, and to honor their family's sacrifice.
    It is absolutely reprehensible that, despite many promises 
by Serbian officials to resolve the case of the state-sponsored 
murder, no individual has ever been found guilty of this 
horrible crime, nor of any other crimes associated with the 
deaths of these innocent Americans. This is Serbian 
Government's responsibility to resolve this case. And my 
resolution notes that progress with this investigation should 
remain a significant factor which determines the further 
development of U.S.-Serbian relations.
    The Bytyqi brothers gave their lives to fight injustice. 
Now we must return this favor and deliver justice for their 
family.
    I want to thank the chair for his support in bringing this 
resolution. I would like to thank the ranking member, Eliot 
Engel, for all of his advocacy through the years, and all my 
colleagues for supporting it.
    I am also proud of the committee's consideration of H.R. 
5898, the UNRWA Accountability Act, a robust bipartisan effort 
with Mr. Cicilline to maintain oversight over UNRWA's 
activities in the West Bank and Gaza. Over the past 6 years, 
every effort to obtain transparency over UNRWA has failed with 
classified reports and uncertainty regarding who is actually 
responsible for conducting reviews.
    We need to crack down on UNRWA and ensure that we are not 
supporting a Refugee Agency that keeps millions in a permanent 
state of dependency.
    Our bill will provide important information to Congress 
regarding the definition of refugees served by UNRWA, as well 
as a strategy for burden sharing that offers the opportunity 
for other regional actors to contribute evenly. We must demand 
that transparency over the anti-Israel textbooks in this 
program that is fueling another generation of hate.
    I have read the classified reports. I have spoken to my 
colleague, our colleague Scott Perry. There are other members 
who are very concerned about this and there is more that we 
need to be doing in the weeks, months, and years ahead. The 
United States cannot support a program that goes against the 
best interest of our greatest ally.
    I would like to thank our committee chairman, Ed Royce, and 
ranking member, Eliot Engel, for their leadership and 
assistance on these important issues. I look forward to working 
with my colleagues in the House and our friends in the Senate 
to pass these bills.
    Again, I would like to thank you, Chairman, and Ranking 
Member, for your hard work in support of these bills and I 
yield back.
    Chairman Royce. Thank you, Mr. Zeldin.
    We go to Brendan Boyle of Pennsylvania.
    Mr. Boyle. Thank you, Mr. Chairman.
    I am supportive of each one of these nine resolutions. I 
just want to highlight one because I think that it is 
incredibly important at this time in history and that is H. 
Res. 256, which expresses support for the countries of Eastern 
Europe and NATO.
    We have led now for 70 years, through Democratic and 
Republican administrations, the Western Alliance. NATO has been 
the bulwark against first Soviet and then Russian expansionism. 
This is something that all Americans should be very proud of.
    And now that some doubt has been raised about this 
country's commitment to NATO, I think that it is vital that 
this committee assert itself on a bipartisan basis to speak out 
with one voice that we support NATO, that we support our 
allies, especially in Central and Eastern Europe, as they 
continue to deal with Russian attacks, whether they are a 
physical force, like our friends in Ukraine are experiencing 
today, or they are in the cyber realm.
    So I am proud to support this. I applaud my fellow 
cosponsors, both Democrats and Republicans.
    And with that, I yield back.
    Chairman Royce. Thank you, Mr. Boyle. We agree with your 
point.
    We go now to Mr. Mike McCaul of Texas.
    Mr. McCaul. Thank you, Mr. Chairman. Thank you for holding 
today's markup.
    I am pleased to have bill H.R. 4969, the Improving Embassy 
Design and Security Act considered today.
    Mr. Chairman, in 1998, terrorists, at the direction of 
Osama bin Laden, bombed U.S. Embassies in Kenya and Tanzania, 
killing over 220 people and injuring 4,000 more. This assault 
foreshadowed bin Laden's intention to attack America and 
demonstrated we need to seriously reassess our Embassies' 
security.
    That is why, in 1999, Congress adopted a standard Embassy 
designed for our missions abroad. This design improved 
security, expedited construction, and saved money. For 20 
years, this design template has been key in mitigating attacks. 
We have also saved taxpayer dollars through bypassing expensive 
architectural bids.
    However, recently, we have deviated from the standard 
Embassy design in favor of projects prioritizing aesthetics. 
While I certainly appreciate the desire for our Embassies to 
have a presentable facade, we must prevent a repeat of Kenya 
and Tanzania.
    To that end, my bill will require the State Department to 
provide Congress with justification, should an Embassy or 
consulate project not use a standard design. Embassies are the 
physical representation of the United States abroad. Providing 
security for our diplomats should be our number one priority. I 
think, if anything, Benghazi certainly demonstrates that. So I 
believe my bill is a good step toward achieving that goal.
    And thank you, again, Mr. Chairman, for moving these bills 
through the committee.
    Chairman Royce. Thank you, Chairman McCaul.
    We go to Norma Torres of California.
    Mrs. Torres. Thank you, Chairman Royce and Ranking Member 
Engel, for your hard work on these bipartisan bills. I support 
all of these measures and I can't say enough about the work 
that you two do, the bipartisan work that both of you do 
together, and how this committee performs on an ongoing basis.
    In particular, I am glad that we are considering H.R. 1697, 
the Israel Anti-Boycott Act. For too long, Israel has been 
unfairly singled out at the United Nations and elsewhere. No 
country is perfect. All of us can do better but the criticism 
of Israel is simply not proportionate to its flaws.
    This bill is an important effort to address that problem 
and I thank the chairman and the ranking member for their hard 
work to address some of the First Amendment concerns that have 
been raised.
    I also want to thank the chairman and ranking member for 
bringing up House Resolution 944. And I was thrilled to have 
the opportunity to work with Chairman Smith on this resolution, 
which expresses sympathy for the victims of the recent volcanic 
eruption in Guatemala, and I appreciate several members of this 
committee joining us as cosponsors. We all care deeply about 
the beautiful country of Guatemala and I am encouraged that we 
can join together in support of the victims.
    According to the latest figures from the Guatemalan 
Government, 112 people were killed by this volcano eruption, 
5,923 have been evacuated, 197 missing, and 29 were injured. 
People across Guatemala and the international community have 
joined together in a relief effort. The U.S. Government worked 
to transfer six children who were burn victims, the youngest 
only 1 year and 8 months old, to the Shriners Hospital in 
Galveston, Texas.
    USAID has announced $300,000 in initial funding for relief 
efforts and I have read stories of volunteers from those 
communities that were mostly affected who have taken upon 
themselves to search for victims or the bodies of their 
relatives and friends. Just the other day I had the opportunity 
to sit down with Chef Jose Andres, who is doing tremendous work 
getting food to those who need it, especially the hardworking 
first responders that are saving many lives every day.
    We have seen countries across the region, Honduras, Mexico, 
and from across the entire world, strong allies like Israel and 
Taiwan, send aid as well. It is encouraging to see so many 
people who are concerned about the victims but we can't lose 
focus on this issue, and we must remain vigilant to ensure that 
the victims get the help they need, and are able to reestablish 
their lives in Guatemala. Otherwise, we could see this volcanic 
eruption lead to yet another wave of refugees at our border.
    I urge all of the Members here in Congress to help continue 
to encourage USAID to do all that they can do to help these 
victims relocate within the Guatemalan border.
    So I, again, thank the chairman and the ranking member and 
I urge my colleagues to support this important measure.
    And I yield back.
    Chairman Royce. Thank you, Congresswoman Torres.
    Now we go to the author of the RAWR Act and, from the 
title, I presume wildlife protection and Katy Perry fan, Dan 
Donovan of Staten Island.
    Mr. Donovan. I will take care for that credit, Mr. 
Chairman.
    Mr. Chairman, I am proud to sponsor the RAWR Act, Rescuing 
Animals with Rewards, H.R. 6197. The RAWR Act will help ensure 
that eliminating the terrorist and transnational criminal 
organizations engaged in wildlife trafficking and poaching will 
be a top rewards priority.
    Combating terrorism is of the utmost importance, not just 
to my constituents, not just to New Yorkers, but to the entire 
nation. It is an issue that reaches across the aisle. My 
district on Staten Island and South Brooklyn, which is home to 
many of New York City's bravest and finest, suffered hundreds 
of first responder casualties on September 11th of 2001. Since 
then, New York remains the world's top terror target.
    As a nation, we have become more resilient and determined 
to mitigate threats but, as we have choked off other sources of 
money, terrorists have increasingly turned to wildlife 
trafficking as a way to fund their heinous endeavors. Any step, 
no matter how incremental, we can take that will lead to the 
capture and conviction of anyone engaged in wildlife 
trafficking, especially terrorists, is a step in the right 
direction.
    I thank you, Mr. Chairman, for your support on this bill 
and I thank my friend from the other side of the aisle, Mr. 
Castro, for co-leading with me. I would also like to thank the 
staff at the Foreign Affairs Committee, who have put much 
excellent work into this bill.
    And with that, Mr. Chairman, I yield back.
    Chairman Royce. And with that, we will go to Mr. Castro.
    Mr. Castro. Thank you, Chairman. Thank you, Representative 
Donovan, for your work and your partnership on the bill, and to 
the other members of the committee on their bills.
    I do want to raise a concern with H.R. 1697, which is that 
I basically think that the bill is written a bit too vague and 
it is too broad. It mentions that the President is going to 
come up with regulations to protect nations that are friendly 
to the United States but doesn't go on to define exactly which 
nations those are.
    The reason that I think that it is problematic is because 
this administration, including the President, on any 
controversial issue of foreign policy, have essentially given 
us two, or three, or four, or five different answers. Sometimes 
the President has given different answers himself on the same 
subject. So I hope that between now and the time that the bill 
goes on the floor, perhaps there can be some more definition.
    I would also feel more comfortable if Congress had some say 
over this, rather than essentially, right now, expanding the 
foreign policy power of this President, who I believe in many 
ways has been irresponsible with that power.
    I yield back.
    Chairman Royce. Thank you. We go to Brad Schneider of 
Illinois.
    Mr. Schneider. Thank you, Mr. Chairman. Mr. Chairman and 
Ranking Member, thank you for holding today's markup.
    I commend my colleagues for working on the legislation 
before us today. In particular, I appreciate the efforts of my 
good friend from Florida, Ted Yoho, on his bill, H.R. 5576, the 
Cyber Deterrence and Response Act of 2018. This bill will help 
protect our country from cyber-attacks by requiring the 
President to designate foreign persons and entities responsible 
for state-sponsored cyber threats. This bill would also require 
the President to publish and regularly update this list and, 
finally, impose sanctions.
    We know there are malicious actors out there right now 
seeking to target the United States. Russia's efforts to 
interfere in our 2016 election was only the beginning, as we 
have heard from our intelligence community that serious threats 
remain.
    Earlier this year, the Director of National Intelligence 
stated that Russia, China, Iran, and North Korea will pose the 
greatest cyber threats to the United States during the next 
year. Our Government must do more to protect our election 
infrastructure and seek to ensure the integrity of every 
citizen's vote.
    I would also like to express my appreciation for the work 
of my colleagues in updating H.R. 1697, the Israel Anti-Boycott 
Act. I am a cosponsor of this bill that declares it is United 
States policy to oppose boycotts imposed by international 
government organizations against countries that are friends to 
the United States. This bill solely covers commercial activity 
and does nothing to limit the rights of individuals protected 
by the First Amendment.
    Finally, I would like to commend the work of my colleagues, 
David Cicilline and Lee Zeldin, for their work on H.R. 5898, 
the UNRWA Accountability Act, and to associate myself with the 
sentiment in the bill expressing the sense of Congress that the 
administration should complete its reviews of U.S. assistance 
programs for the West Bank, and Gaza, and UNRWA. This bill also 
calls for a long-term strategy for policy toward UNRWA and will 
help us better understand the reforms the administration has 
called for, how they plan to address the humanitarian needs 
currently covered by UNRWA, and the impact any policy changes 
will have on broader regional security and stability, including 
specifically toward Israel.
    Once again, I thank the chairman and ranking member for 
holding today's hearing.
    And with that, I yield back.
    Chairman Royce. We go now to David Cicilline of Rhode 
Island.
    Mr. Cicilline. Thank you, Mr. Chairman. I want to thank you 
and the ranking member for holding this markup and for 
including the UNRWA Accountability Act, which I introduced with 
my colleague, Mr. Zeldin, on the list of bills being considered 
today.
    Holding a markup on this bill is a testament to the 
bipartisanship of this committee and the leadership of Chairman 
Royce and Ranking Member Engel. As we all know, UNRWA can be a 
controversial topic here in Congress but we have been able to 
come together to support a bill that will reassert 
congressional oversight for funding programs to UNRWA, and the 
West Bank, and Gaza.
    In January, the Trump administration announced that it was 
holding any further funding for UNRWA, the United Nations 
Relief and Works Agency for Palestinian Refugees, which is the 
U.N. agency responsible for carrying out assistance programs 
for Palestinian refugees. Today, there are roughly five million 
Palestinians eligible for UNRWA services in the West Bank, 
Gaza, Lebanon, Syria, and Jordan. We have also been recently 
informed by the administration officials that all future 
assistance for the West Bank and Gaza has been put on hold 
pending review as well.
    This legislation will assert proper congressional oversight 
of the administration's review of funds to UNRWA, and 
assistance to the West Bank and Gaza, and ensure that details 
of the review process are provided in a timely manner in what, 
so far, has been a review with no discernable process or time 
line. It will do this by requiring that the administration 
submit two reports to Congress detailing the status of the 
reviews within 45 days.
    To be clear, I believe that funding for these bilateral 
programs and for UNRWA, funding which has been appropriated by 
Congress, should be resumed immediately. There is no reason why 
it is necessary to hold funding while conducting the review. 
And any decisions made as a result of the review can be carried 
out in the new fiscal year with appropriate coordination with 
Congress. Congress has repeatedly sought details about the 
ongoing reviews from administration officials but very little 
has been provided.
    Meanwhile, the situation of Palestinian refugees, 
particularly in Gaza, is getting more dire by the day. For 
example, UNRWA has said that it currently faces a $250 million 
shortfall for 2018 and, despite taking measures to limit 
expenditures, will be unable to open all of its 700 schools on 
time in August. Hamas has offered to take over administration 
of Palestinian schools in Gaza, should UNRWA be unable to do 
so.
    UNRWA doesn't have funding to support food rations for the 
final quarter of the year, which will leave hundreds of 
thousands of Palestinians without the ability to meet their 
nutritional needs.
    The unemployment rate in Gaza is nearly 50 percent and 
UNRWA is about to terminate 3,000 short-term contracts due to 
budget shortfalls, leaving even more families without the means 
to support themselves.
    The freeze of bilateral assistance programs in the West 
Bank and Gaza, which are largely carried out by NGOs is also 
having a devastating impact. For example, Catholic Relief 
Services has said that 140,000 individuals in Gaza will lose 
emergency assistance and they will be forced to lay off 90 
staff members by September.
    American Near East Refugee Aid reports that if the freeze 
continues, 71,000 people will lose access to projects improving 
water, sanitation, schools, and other critical facilities. 
These are just a few examples of the real-world impact that the 
current freeze of funds is having on Palestinians.
    I ask the chairman for unanimous consent to place two 
documents into the record. The first is a program budget and 
Gaza field update provided by UNRWA and the second is a 
compilation of information from NGO's working in Gaza and the 
West Bank entitled NGO Programs in Gaza and the West Bank 
Impact by Funding Hold During Administrative Review as of June 
15, 2018.
    Chairman Royce. Without objection.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Whatever criticisms we have UNRWA and the Palestinian 
leadership, and there are many valid ones, it is contrary to 
American interests and the interests of Israel to exacerbate 
this humanitarian crisis. If the administration is seeking 
structural changes to UNRWA, they must seek them at the United 
Nations General Assembly, which is the only body that can alter 
UNRWA's mandate.
    If they want to see alternatives to UNRWA for American 
assistance delivery, they should do so in a concerted and 
transparent way that does not leave a devastating funding gap 
for Palestinian humanitarian assistance.
    And if they desire reforms that UNRWA can undertake 
internally, they should submit those reforms to UNRWA and begin 
a conversation about how they can be achieved. I would note 
that there is a formal process for this and the Trump 
administration signed a new framework for cooperation between 
the United States and UNRWA in December 2017, which lays out a 
series of shared goals and priorities for UNRWA and the United 
States.
    I would like to submit this document into the record and 
ask unanimous consent to do so.
    Chairman Royce. Without objection.
    Mr. Cicilline. Rather than take a series of thoughtful and 
coordinated steps in order to lay out and address their 
concerns with UNRWA, the administration has acted in a way that 
suggests to me that they intend to use the increasingly dire 
humanitarian situation in Gaza and the West Bank as a stick to 
try to force Palestinian acquiescence to Jared Kushner peace 
plan. This is not only cruel, it is bad policy.
    As the United States slows or stops its contributions to 
UNRWA, we must understand that other actors will fill the gap. 
Countries like Saudi Arabia, Iran, and Qatar will not ask for 
strict oversight of UNRWA's school curriculum or the abuse of 
UNRWA resources by Hamas. If we give up our position as a 
donor, we also give up our influence.
    This is a dangerous game. If you don't believe me, believe 
the current Chief of Staff of the Israeli Defense Forces, Gadi 
Eizenkot, who said in an interview earlier this year that the 
likelihood of escalation to the point of war has increased 
substantially between Gaza and Israel, in part because of the 
cuts to UNRWA funding. And I would like to ask unanimous 
consent to place that article in the record as well.
    And Mr. Chairman, just in closing, I know many of my 
colleagues on both sides of the aisle have deep concerns about 
the functions of UNRWA, about Hamas' role in Gaza, and about 
the Palestinian leadership's commitment to achieving peace. I 
share many of these concerns and I think this body has taken 
many steps to address these issues but we shouldn't throw the 
baby out with the bath water and I am glad that today we were 
able to consider a bipartisan piece of legislation that will 
bring some order and timeliness to this review process and 
expert proper congressional oversight of our foreign 
assistance.
    And I want to thank all of my colleagues for their support 
of this legislation and particularly thank Mr. Zeldin for 
working across the aisle to ensure this issue receives due 
consideration by this body.
    And I thank the chairman for his indulgence and yield back.
    Chairman Royce. Thank you.
    We go to Ted Poe of Texas.
    Mr. Poe. Thank you, Chairman.
    I support all of these pieces of legislation before us, 
except the last one from Mr. Zeldin, and I have some questions. 
He is not here but maybe Mr. Engel can yield for a question or 
two regarding H. Con. Res. 20.
    Mr. Engel. Sorry. Certainly.
    Mr. Poe. It is my understanding that there have been some 
prosecutions. Those people were tried, they were found not 
guilty, and upheld on appeal. Is that right or wrong?
    Mr. Engel. Yes, I am not sure. I don't know of any.
    Mr. Poe. All right. According to the--anyway, I believe 
that has occurred. I will take back my time.
    But my concern, Mr. Chairman, is the fact that we, in this 
H. Con. Res., and I will make it very clear, being a former 
judge, criminals need to be prosecuted and prosecuted wherever 
they commit these crimes in the world.
    I do believe that Serbia is moving to try to find at least 
the one person that has been mentioned in the resolution itself 
and prosecute. But be that as it may, I don't think that the 
answer to getting Serbia to prosecute these outlaws is to not 
have a relationship with the country of Serbia. I think we can 
only solve these problems if we have a relationship with 
countries, not if we break off relationships with these 
countries.
    So for that reason, I would not support this H. Con. Res.
    Chairman Royce. Would the gentleman yield?
    Mr. Poe. Absolutely.
    Chairman Royce. I thank the judge for yielding. I would 
point out that in this particular case, although charges were 
brought at one point--yes, charges were brought momentarily 
against two individuals but swiftly those charges were then 
again dropped.
    There was another case, as you say, where charges were 
brought on a third individual but that individual passed on. So 
it became a moot point.
    The point I would make is that we can engage, we can have a 
relationship with states but, at the same time, retain our 
rights on behalf of our own citizens. So in this particular 
circumstance, we have three American citizens hiking on the 
border, who cross over the border from Albania to Serbia, and 
then are killed by a death squad.
    It is, I think, under this set of circumstances, the fact 
that no one has been brought yet to the bar of justice these 
many years after, altogether appropriate upon reflection here, 
I think, given that set of circumstances, that we move a 
resolution. And remember that as this resolution was written, 
we did try to incorporate this particular perspective, Your 
Honor. Judge, we did recognize recent improvements in U.S.-
Serbia relations in the text in order to try to be balanced. We 
added: Whereas, in the following years, the political 
leadership of Serbia has worked to strengthen democratic 
institutions--I think that is an important point, strengthen 
democratic institutions--to develop stronger adherence to the 
rule of law, and to ensure respect for human rights and 
fundamental freedoms, including as the Federal Republic of 
Yugoslavia evolved into a State Union of Serbia and Montenegro 
in February 2003, which itself dissolved--okay.
    So the point is that we have included that language but, at 
the end of the day, we are left with three Americans whose 
lives were taken by a paramilitary unit and nothing done by the 
state to hold someone ultimately accountable. For that, I think 
it is quite understandable and quite proper that we move 
forward and speak on behalf of those Americans.
    I yield back.
    Mr. Poe. Reclaiming my time, once again, where crimes are 
committed, wherever they happen in the world, especially 
against Americans, we ought to go get the outlaws. We ought to 
have that country help get the outlaw.
    But just reading the resolution as it is written, it states 
that there were two individuals that were tried and found not 
guilty, and they appealed their case, and the appellate court 
upheld the acquittal on those two individuals.
    But my concern is not that. My concern is how we, as a 
nation, go after encouraging Serbia to correct this mistake, 
correct this crime, rather, and make sure people are brought to 
justice. And I am concerned about how our diplomatic relations 
should not decrease. They should increase.
    So that is the concern I have--the way that it is addressed 
in the resolution, how we find justice for these three 
individuals. Certainly, the criminals needs to be brought to 
justice.
    So I will yield back, Mr. Chairman.
    Mr. Engel. Mr. Chairman?
    Chairman Royce. Mr. Engel.
    Mr. Engel. I am wondering if I can get some time to comment 
on this.
    Chairman Royce. Mr. Engel.
    Mr. Engel. Thank you, Mr. Chairman.
    When Secretary Tillerson was still Secretary of State and 
came before this committee, I just want to read into the record 
an exchange that I had with him.
    I said that I am deeply concerned with the lack of justice 
for murders and crimes committed by the Government of Serbia 
during and after the Kosovo War. And particularly, there have 
been no charges brought against anyone for the murders of three 
American citizens, the Bytyqi brothers, despite widespread 
understanding of who was behind them.
    Serbian President Vucic and Acting Prime Minister Dacic 
have promised very senior U.S. Government officials for many 
years that they would bring to justice the perpetrators of this 
crime and the crime of burning our Embassy in 2008. They both 
also made these promises to me.
    On January 31st of this year, the respected Humanitarian 
Law Center of Belgrade released a dossier called, ``The Cover-
Up of Evidence of Crimes During the War in Kosovo: The 
Concealment of Bodies Operation.'' This report described mass 
graves in Serbia containing the bodies of 941 Kosovo Albanians, 
mainly civilians killed outside combat situations in Kosovo, 
during 1999. According to the report, and I quote, the evidence 
corroborated the decision to conceal evidence of crimes 
committed was planned as early as March 1999 at the highest 
level of the government, and indicated that members of both 
departments of the Serbian MUP, which is the State Security 
Department, Public Security Department, and the Yugoslav's Army 
Departments in charge of clearing up the terrain--I think that 
is a quote--were involved in it.
    The murder and mass burial of almost a thousand innocent 
civilians is a crime against humanity but the perpetrators have 
gone unpunished. It is long past time for Belgrade to face 
these facts and bring to justice the people, including high 
officials in its government, who are behind these very serious 
crimes.
    At the same time, the Serbian stalling and stonewalling has 
brought no adjustment in policy from the United States and the 
European Union's willingness to proceed with Serbia's accession 
process to the EU has been unaffected. This has to stop. It has 
to stop now until Serbia bring those who have committed these 
serious crimes to justice. The EU should not move ahead with 
Belgrade's accession process and the United States should think 
twice before advancing our relations with Serbia.
    And I asked: What is the United States doing to press 
Serbia to bring to justice the murderers of the Bytyqi 
brothers, those who burned the United States Embassy, and those 
who murdered and buried in mass graves almost a thousand 
innocent Kosovo civilians, with the ICTY, which is I-C-T-Y, no 
longer accepting any new cases and closing down at the end of 
this year, and Serbia seemingly unwilling to prosecute anyone 
for these grave offenses? Will you support a new international 
or special tribunal similar to that which was established in 
Kosovo to prosecute those responsible?
    And Secretary Tillerson answered: We share your frustration 
with a lack of progress in the Bytyqi case, and the slow 
progress in the 2008 Embassy burning case, and raised the issue 
with Serbian officials at all levels of government, including 
with Serbian President Aleksandar Vucic. We have also informed 
Serbian officials that these issues stand in the way of closer 
bilateral relations.
    Serbia recently appointed a new special war crimes 
prosecutor. The position had remained vacant for almost a year 
and a half. And we have called for the Bytyqi case to be a 
priority in her work. We are hopeful that this appointment will 
serve to advance the investigation and prosecution of those 
responsible for the Bytyqi murders.
    And I think I will end here.
    Mr. Poe. Will the gentleman yield?
    Mr. Engel. Certainly.
    Mr. Poe. I don't quarrel with anything that you have said 
regarding what has happened in the war crimes and the incidents 
throughout history.
    My concern is if we diminish our relationship with Serbia, 
getting an answer to all of these questions that you have 
brought up--I don't think will increase. I think it is a 
mistake to decrease relations with Serbia. I think we need to 
increase those relations so that we can get resolution to all 
of the things that you have mentioned.
    So I will yield back to the gentleman and I thank him for 
his comments.
    Mr. Engel. Let me just say very quickly to the gentleman, 
who is my friend, and who I have a lot of respect for, the 
frustration is that it has been 19 years and nothing seems to 
happen, whether we have good relations, or bad relations, or 
anything like that. And so it is very frustrating.
    I had an ironclad promise face-to-face by the head of 
Serbia, Mr. Vucic, who told me it would take him a month and it 
has been much more than a year now. So it is just a 
frustration. I know the gentleman has worked very hard in 
trying to improve relations in that part of the world and 
improve relations with countries and the United States but it 
is just coming to a head and is very, very frustrating.
    But I understand the gentleman's points.
    Chairman Royce. Noting we are halfway into the vote on the 
floor, we must go to Mr. Gerry Connolly of Virginia.
    Mr. Connolly. Thank you, Mr. Chairman.
    And knowing that, let me just say I want to associate 
myself with the remarks Mr. Cicilline on humanitarian crisis. 
By defunding or freezing funding for UNRWA is not going to add 
anything in terms of stability in the Middle East and it is not 
a friendly act to Israel.
    So I certainly associate myself with him and support H.R. 
5898.
    I just wanted to thank the chairman, and ranking member, 
and the author of the bill H.R. 5576 for accepting my 
amendment, which is adding Russia as an identified cyber bully. 
Nobody has interfered, historically, in American elections with 
the breadth and scope of Russia. We need to take cognizance of 
that.
    The Trump Treasury Department did just that in announcing 
sanctions in March against five Russian entities and 19 Russian 
individuals, pursuant to Executive Order 13694 and the 
overwhelmingly passed bipartisan bill Countering America's 
Adversaries Through Sanctions Act.
    So I thank my colleagues for accepting the amendment. I 
think it is an important statement for us and I intend to 
support the motions before us.
    I yield back.
    Chairman Royce. And we thank you for your contribution to 
the bill with that amendment, Mr. Connolly.
    Mr. Connolly. I thank you and I yield back.
    Chairman Royce. Hearing no further requests for 
recognition, the question occurs on items considered en bloc.
    All those in favor say aye.
    All those opposed, no.
    In the opinion of the chair, the ayes have it and the 
measures considered en bloc are agreed to.
    Without objection, each measure in the en bloc is ordered 
favorably reported, as amended, as a single amendment in the 
nature of a substitute, and staff is directed to make any 
technical and conforming changes, and the chair is authorized 
to seek House consideration under suspension of the rules.
    That concludes our business today and I want to thank, of 
course, all our members here, and Ranking Member Engel for your 
contributions and assistance with today's markup.
    The committee is adjourned.
    [Whereupon, at 11:36 a.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

               

   Material submitted for the record by the Honorable Ted S. Yoho, a 
  Representative in Congress from the State of Florida, and chairman, 
                  Subcommittee on Asia and the Pacific
                  
                  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



 Material submitted for the record by the Honorable David Cicilline, a 
       Representative in Congress from the State of Rhode Island
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



 Material submitted for the record by the Honorable David Cicilline, a 
       Representative in Congress from the State of Rhode Island
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



 Material submitted for the record by the Honorable David Cicilline, a 
       Representative in Congress from the State of Rhode Island
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 Material submitted for the record by the Honorable David Cicilline, a 
       Representative in Congress from the State of Rhode Island
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 

                                 <all>
</pre></body></html>
